OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID/CAMBODIA’S
COUNTER TRAFFICKING IN
PERSONS PROJECT
AUDIT REPORT NO. 9-000-10-002-P
December 10, 2009




WASHINGTON, DC
Office of Inspector General


December 10, 2009

MEMORANDUM

TO:                  USAID/Cambodia, Director, Flynn Fuller

FROM:                IG/A/PA, Director, Steven H. Bernstein /s/

SUBJECT:             Audit of USAID/Cambodia’s Counter Trafficking in Persons Project
                     (Report No. 9-000-10-002-P)

This memorandum transmits our final report on the subject audit. In finalizing the report, we
carefully considered your comments on the draft report, and we have included the mission’s
comments in their entirety in appendix II.

This report includes three recommendations for your action. Based on management’s
comments, the audit considers that a management decision has been reached for each of the
three recommendations. Determination of final action will be made by the Audit, Performance
and Compliance Division upon completion of the planned corrective actions for all
recommendations.

I want to express my appreciation for the cooperation and courtesy extended to my staff during
the audit.




U.S. Agency for International Development
1300 Pennsylvania Avenue, NW
Washington, DC 20523
www.usaid.govoig
CONTENTS
Summary of Results ....................................................................................................... 1


Background ..................................................................................................................... 3


Audit Objective .................................................................................................................. 5


Audit Findings ................................................................................................................. 6


     USAID/Cambodia Needs to Establish Baseline Data on
     Trafficking Victims…..... .............................................................................................. 8


     USAID/Cambodia Needs to Develop Indicators and Targets to
     Measure Progress and Achievement of Project Goals ............................................. 10


     USAID/Cambodia Should Improve the Methodology of
     Processing Trafficking Cases.................................................................................... 12


Evaluation of Management Comments ....................................................................... 14


Appendix I – Scope and Methodology ........................................................................ 15


Appendix II – Management Comments ....................................................................... 17


Appendix III – Methods Suggested by Expert Panel to Estimate the Number of
Human Trafficking Victims .......................................................................................... 20


Appendix IV – Audited Fiscal Year 2009 Work Plan Activities ................................. 21
SUMMARY OF RESULTS
USAID/Cambodia highlights within its operational plan that its overall goal is to reduce
the incidence of trafficking in persons in Cambodia. This goal is implemented through
the Counter Trafficking in Persons project. The goals of the project are to (1) provide
protection to victims of human trafficking in Cambodia, (2) increase prosecution of
human traffickers, (3) coordinate targeted prevention and awareness-raising activities,
and (4) assist with the reintegration of trafficking survivors into Cambodian society. The
Counter Trafficking in Persons project is implemented through a cooperative agreement
between USAID/Cambodia and The Asia Foundation (see page 4).

The agreement was awarded on August 4, 2006, and was scheduled to end on
September 30, 2009. The total amount obligated for the project was approximately $4.6
million, and as of June 24, 2009, about $3.8 million was disbursed to The Asia
Foundation. On September 29, 2009, USAID/Cambodia extended the project an
additional 2 years from September 30, 2009, to September 30, 2011, and increased the
total estimated amount by $2.7 million from $4.6 million to $7.3 million (see page 4).

The Counter Trafficking in Persons project completed, or substantially completed, 32 of
37 target activities. However, the target indicators and activities did not measure
USAID/Cambodia’s achievement of the project goals and objectives (see page 6)
because of a lack of baseline data and development of measureable performance
indicators that would determine the success of the project (see pages 8–13).

The mission noted that previous attempts by other organizations and researchers to
collect data in Cambodia were unsuccessful (see page 9). A 2006 U.S. Government
Accountability Office (GAO) audit report on human trafficking found that the accuracy of
the estimates of trafficking is in doubt because of methodological weaknesses, gaps in
data, and numerical discrepancies (see page 9). A 2007 GAO audit report on human
trafficking states that baseline and target values of indicators are needed to assess
project performance (see page 11). The United Nations Children’s Fund noted that
Cambodia has some issues in data collection because no judicial database is
operational (see page 13).

The first year of the project experienced (1) programmatic changes caused by severe
funding cuts to USAID programs and (2) revisions to the project to reflect USAID’s new
program focus on U.S. Government and Royal Government of Cambodia collaboration.
The mission extended the 3-year project an additional 2 years in order to complete
project activities in the four main component areas: coordination, prevention, protection
and reintegration, and prosecution (see page 6).

Over the life of the project, USAID/Cambodia has focused on the coordination
component and has helped build the Royal Government of Cambodia’s capacity to take
the lead in coordinating joint actions with nongovernmental organizations. However,
USAID/Cambodia has not developed measurable performance indicators and targets to
gauge the success of the coordination efforts (see page 6).

Although USAID/Cambodia’s efforts to assist the Royal Government of Cambodia to
combat human trafficking have achieved some outputs, the mission did not establish


                                                                                        1
baseline data and did not develop measureable performance indicators to monitor and
evaluate progress toward project goals and objectives. Audit findings include the need
to (1) collect baseline data on trafficking; (2) develop performance indicators and targets
to measure progress and achievement of project goals; and (3) develop a standard
methodology to track arrests, prosecution, and conviction cases through the judicial
system (see pages 8─13). The report contains three recommendations to address
these concerns.

The report recommends that USAID/Cambodia:

   •   Develop and implement a plan, in conjunction with the Royal Government of
       Cambodia, to establish and implement a national data collection system as a
       prerequisite to establishing baseline data on numbers of trafficking victims (see
       page 10).

   •   Develop performance indicators and targets to measure progress and
       achievement of the Counter Trafficking in Persons project goals (see page 11).

   •   Develop and implement a plan, in conjunction with the Royal Government of
       Cambodia, to improve the methodology to track arrests, prosecution, and
       conviction of trafficking cases that enter the judicial process (see page 13).

USAID/Cambodia generally agreed with all three recommendations.    Based on
management’s comments, a management decision has been reached for each of the
recommendations and a determination of final action is pending (page 14).
Management comments are included in their entirety in appendix II.




                                                                                         2
BACKGROUND
The Department of State estimates that more than 800,000 women, children, and men are
trafficked across national borders each year. According to the Secretary of State, “The
Obama Administration views the fight against human trafficking, at home and abroad, as an
important priority on our foreign policy agenda.” The U.S. Government has been at the
forefront of efforts to stop trafficking in persons throughout the world, funding 140
antitrafficking programs in nearly 70 countries. Since 2001, the United States has provided
approximately $528 million in antitrafficking assistance overseas, and USAID has been a
key player, providing about $123 million in assistance to more than 70 countries.

Trafficking in persons not only abuses human rights but also threatens Cambodia’s future.
Cambodia is a source, transit, and destination country for men, women, and children
trafficked for the purpose of commercial sexual exploitation and forced labor. Cambodian
women and children are trafficked to Thailand and Malaysia for sexual exploitation and
forced labor. Cambodian men migrate willingly and eventually end up in conditions of
forced labor in the fishing, construction, and agricultural industries in these countries. Sex
trafficking of women and children occurs within Cambodia’s borders from rural areas to
cities. Parents sometimes sell their children into involuntary servitude to serve as beggars
or into domestic servitude, or to work in brothels. Deprived of the most fundamental human
rights, women and children—some as young as 7 years old—are forced into the sex
industry, where they suffer physical and mental abuse and are exposed to diseases,
including HIV/AIDS.

The Royal Government of Cambodia is trying to combat trafficking with support from the
highest levels of government. It is providing a new leadership role through its
coordination efforts with the National Task Force against Human Trafficking, the Royal
Government of Cambodia’s governing body for countertrafficking efforts in Cambodia.
However, Cambodia does not fully comply with the minimum standards 1 for the elimination
of trafficking set forth in the Trafficking Victims Protection Act of 2000, 22 U.S.C. 7101-
7110, and did not recently show evidence of progress in protecting trafficking victims and
convicting and punishing human trafficking offenders, including complicit public officials.
The June 2009 annual State Department Trafficking in Persons Report to Congress
noted that the Royal Government of Cambodia initiated 71 trafficking prosecutions but
convicted only 12 trafficking offenders, a significant decrease from 52 convictions during



1
  Per section 108 of the Trafficking Victims Protection Act of 2000, 22 U.S.C. 7106, the minimum
standards for the elimination of trafficking applicable to the government of a country of origin, transit,
or destination for victims of severe forms of trafficking are the following: (1) The government of the
country should prohibit severe forms of trafficking in persons and punish acts of such trafficking. (2)
For the knowing commission of any act of sex trafficking involving force, fraud, coercion, or in which
the victim of sex trafficking is a child incapable of giving meaningful consent, or of trafficking which
includes rape or kidnapping or which causes a death, the government of the country should
prescribe punishment commensurate with that for grave crimes, such as forcible sexual assault.
(3) For the knowing commission of any act of a severe form of trafficking in persons, the government
of the country should prescribe punishment that is sufficiently stringent to deter and that adequately
reflects the heinous nature of the offense. (4) The government of the country should make serious
and sustained efforts to eliminate severe forms of trafficking in persons.


                                                                                                        3
the previous reporting period. As a result, Cambodia has been downgraded from Tier 2
to Tier 2 Watch List 2 on the Trafficking in Persons Report to Congress.

USAID/Cambodia’s Counter Trafficking in Persons project is one of many antitrafficking
programs funded by USAID around the globe.                  For fiscal year (FY) 2009,
USAID/Cambodia’s operational plan highlights that its overall goal is to reduce the
incidence of trafficking in persons in Cambodia. In the short term, U.S. assistance aims to
enable the Royal Government of Cambodia to play a strong role in the coordination of
antitrafficking efforts by all actors in Cambodia and to promote the utilization of best
practices in prevention, protection, and prosecution. On August 4, 2006, USAID/Cambodia
awarded a cooperative agreement to The Asia Foundation to provide support for the
Counter Trafficking in Persons project for 3 years, with a planned completion date on
September 30, 2009. The total amount obligated for the project was approximately $4.6
million, and as of June 24, 2009, about $3.8 million had been disbursed to The Asia
Foundation. On September 29, 2009, USAID/Cambodia extended the project an additional
2 years from September 30, 2009, to September 30, 2011, and increased the total
estimated amount by $2.7 million from $4.6 million to $7.3 million.

The Asia Foundation is the sole implementer of the Counter Trafficking in Persons project;
however, several subgrantees and other stakeholders have been involved throughout the
life of the project. Subgrantees have included international nongovernmental organizations
such as Friends International, World Hope International, and World Vision International;
Cambodia government ministries; government shelters and privately run shelters; and
several local nongovernmental organizations.

The original goal of the Counter Trafficking in Persons project, based on the memorandum
of understanding between USAID and the Royal Government of Cambodia dated
December 15, 2006, is to (1) provide protection to victims of human trafficking in Cambodia,
(2) increase prosecution of human traffickers, (3) coordinate targeted prevention and
awareness-raising activities, and (4) assist with the reintegration of trafficking survivors into
Cambodian society. According to the FY 2009 work plan, the overall objective of the
project is to contribute toward strengthening the joint efforts of the Royal Government of
Cambodia and civil society to combat human trafficking and to safeguard the human rights
of those vulnerable to exploitation. In the same work plan, the project represents a four-
pronged approach to combating trafficking and includes work in the areas of coordination,
prevention, protection and reintegration, and prosecution, including the following:




2
  Per the Trafficking in Persons Report 2009, governments that fully comply with the Trafficking
Victims Protection Act of 2000, 22 U.S.C. 7101-7110, are placed on Tier 1. Countries at Tier 2 do
not fully comply with the Act’s minimum standards, but are making significant efforts to bring
themselves into compliance. Countries on the Tier 2 Watch List meet the Tier 2 definition and must
meet one of three criteria: (1) the number of victims of severe forms of trafficking is very significant
or significantly increasing; (2) there is a failure to provide evidence of increasing efforts to combat
severe forms of trafficking in persons from the previous year, including increased investigations,
prosecutions, and convictions of trafficking crimes; increased assistance to victims; and decreasing
evidence of complicity in severe forms of trafficking by government officials; or (3) the determination
that a country is making significant efforts to bring itself into compliance with the minimum standards
was based on commitments by the country to take additional steps over the next year. Tier 3
countries do not fully comply with the minimum standards and are not making major efforts to do so.


                                                                                                      4
    •   To build the capacity of the Royal Government of Cambodia to take the lead in
        coordinating joint action with civil society and other trafficking in persons actors to
        combat trafficking

    •   To develop and implement a national system for data collection on trafficked
        persons

    •   To facilitate targeted awareness-raising on trafficking in person related issues by
        mainstreaming the antitrafficking message

    •   To improve quality of assistance offered to trafficked persons

    •   To increase access to justice for trafficked persons

    •   To increase the capacity of law enforcement officials and social service providers
        to protect the human rights of trafficked and exploited persons



AUDIT OBJECTIVE
This audit was included in the Office of Inspector General’s Fiscal Year 2009 annual
plan and was conducted to answer the following question:

•   Has USAID/Cambodia’s Counter Trafficking in Persons project achieved its planned
    activities?

Appendix I contains a discussion of the audit’s scope and methodology.




                                                                                             5
AUDIT FINDINGS
The Counter Trafficking in Persons project has completed, or substantially completed, 3
32 of 37 target activities. However, the target indicators and activities did not measure
USAID/Cambodia’s achievement of the project goals and objectives because of a lack of
baseline data and development of measureable performance indicators that would
determine the success of the project.

The first year of the project experienced (1) programmatic changes resulting from severe
funding cuts to USAID programs during an Agencywide strategy review and prioritization
process, and (2) revisions to the project to reflect USAID’s new program focus on U.S.
Government and Royal Government of Cambodia collaboration. As a result of
subsequent cooperative agreement modifications, the mission extended the 3-year
project an additional 2 years. With the extension, the mission intends to complete
project activities in the four main component areas: coordination, prevention, protection
and reintegration, and prosecution.

At the activity level, appendix IV presents the activities, target indicators, and
achievements for fiscal year (FY) 2009. Examples of activities in the four component
areas are discussed below.

Coordination: USAID/Cambodia has facilitated coordination between government and
civil society and helped build the capacity of the Royal Government of Cambodia to take
the lead in coordinating joint actions with nongovernmental organizations; however, it
has not developed measurable performance indicators and targets to gauge the success
of the coordination efforts (see page 10).

The memorandum of understanding between USAID and the Royal Government of
Cambodia, dated December 15, 2006, stated that the purpose of the memorandum is to
strengthen the cooperation and implementation of the Counter Trafficking in Persons
project among the Royal Government of Cambodia, USAID, and The Asia Foundation in
the areas of protection and reintegration, prevention, and prosecution. In the FY 2009
work plan, the coordination component had the following three purposes:

    (1) to improve coordination between government and civil society on counter-
        trafficking activities,

    (2) to build the capacity of the government to take the lead in coordinating joint
        action with civil society and other trafficking in persons organizations to combat
        trafficking, and

    (3) to develop and implement a national system for data collection on trafficking.

One of the activities performed during 2009 was assisting the Royal Government of
Cambodia in coordinating the efforts of the National Task Force against Trafficking in
Persons (the National Task Force) and the High-Level Working Group, established in

3
 “Substantially completed” activities were completed later than planned, are on schedule to be
completed, or were subject to minor scope adjustments during implementation.


                                                                                            6
March 2007 and August 2007, respectively. The National Task Force is composed of 11
government ministries and other government agencies, and coordinates the efforts of
more than 150 local and international nongovernmental organizations to combat human
trafficking and exploitation.

Prevention: The memorandum of understanding also stated that a goal of the project is
to coordinate targeted prevention and awareness-raising activities. The project created
a national campaign that targeted awareness of trafficking and provided economic
opportunities to vulnerable groups. The purposes of the prevention component noted in
the FY 2009 work plan are as follows:

   (1) to facilitate targeted awareness-raising on trafficking-in-persons-related issues by
       mainstreaming the antitrafficking message,

   (2) to provide economic opportunities and education to vulnerable groups, and

   (3) to highlight existence of trafficking for purposes other than sexual exploitation.

During FY 2009, the Counter Trafficking in Persons project assisted Cambodia in
running a national campaign to promote awareness of trafficking, vocational training for
at-risk individuals, and income generation for at-risk families.

The national campaign promoted family and community unity to combat trafficking and
consisted of five provincial forums held in the provinces of Phnom Penh, Siem Reap,
Sihanoukville, Svay Rieng, and Bantey Meanchey. These forums included attendees
such as local government employees, community members, and nongovernmental
organization representatives.

In addition, the Counter Trafficking in Persons project provided employment-linked
vocational training to 111 students through local nongovernmental organizations, 297
interest-free loans to at-risk families to allow students to remain in school instead of
dropping out in order to assist their families with income generation, and 206 scholarships
for students to continue their education.

Protection and Reintegration: The goals of this component, as noted in the
memorandum of understanding, are to provide protection to victims of human trafficking
in Cambodia and assist with the reintegration of trafficking survivors into Cambodian
society. The Asia Foundation designed the following protection and reintegration
purposes in the FY 2009 work plan to accomplish these goals:

   (1) to improve the quality of the assistance offered to trafficked persons, and

   (2) to increase access to quality assistance programs.

The project improved access to existing shelters by providing a grant to World Hope
International that supported approximately half of its annual operating budget. Word Hope
International’s budget included items such as rent, cars, food, medical care, staff salaries,
and properties. World Hope International operates a short-term emergency center in
Cambodia for victim aftercare assistance with an assessment triage, and cares for an
estimated 144 victims per year, of whom approximately 60 percent are trafficking victims.



                                                                                            7
Prosecution: As noted in the memorandum of understanding, USAID/Cambodia’s goal
for this component is to increase prosecution of human traffickers, focusing on the
following purposes in the FY 2009 work plan:

   (1) to increase access to justice for trafficked persons, and

   (2) to increase the capacity of law enforcement to protect the human rights of
       trafficked and exploited persons.

As mentioned above, increasing the capacity of Cambodian law enforcement officials is
important. The project has been instrumental in developing training for law enforcement
officials on the new Law on Suppression of Human Trafficking and Sexual Exploitation,
adopted by the Royal Government of Cambodia in February 2008. Official explanatory
notes explaining the new law have been drafted and are due for release in 2009.

To further enhance the project’s capacity-building efforts, a training module on
conducting raids and rescues without violating the rights of victims was developed and
implemented for both police officers and social service providers in a joint effort of The
Asia Foundation and the Royal Government of Cambodia.

Audit Findings: Although the Counter Trafficking in Persons project completed, or
substantially completed, 32 of 37 target indicators, factors that impair determining the
achievement of the main goals are the lack of (1) baseline data on trafficking (see
below), (2) indicators and targets to measure progress and achievement of project goals
(see page 10), and (3) a case management mechanism to track arrest, prosecution, and
conviction cases through the judicial system (see page 12).

USAID/Cambodia Needs to Establish
Baseline Data on Trafficking Victims
   Summary:       Federal law and USAID guidance require missions to establish
   performance baselines against which to measure the achievement of set
   performance targets. USAID/Cambodia’s Counter Trafficking in Persons project has
   not established baseline data on trafficking victims. Mission officials determined that
   establishing baselines is beyond the scope of the project and the financial resources
   available. Without estimates of the scope of human trafficking to use as baselines in
   project locations, it is difficult to determine where interventions are most needed and
   would have the greatest impact.

The Foreign Assistance Act of 1961, Section 621A, 22 U.S.C. 2381a, is entitled
Strengthened Management Practices and states that Congress believes that U.S.
foreign aid funds could be utilized more effectively by applying advanced management
decision making, and information and analysis techniques. To meet this need, the
President shall establish a management system that includes methods for comparing
actual results of programs and projects with the results anticipated when they were
undertaken.

In addition, Automated Directives System (ADS) 203.3.4.5 states that, for each indicator
in a performance management plan, the assistance objective team should include
performance baselines and set performance targets that are ambitious but that can be


                                                                                             8
achieved realistically within the stated timeframe and with the available resources.
Baseline values should be measured using the same data collection source and method
that will be used to collect actual performance data. If baseline data cannot be collected
until later in the course of an assistance objective, the assistance objective team should
document when and how the baseline data will be collected.

According to a U.S. Government Accountability Office (GAO) audit report 4 on Human
Trafficking dated July 2007, estimates of the numbers of trafficking victims are needed
for baselines to evaluate how effectively specific interventions are reducing trafficking.
Another GAO audit report 5 on human trafficking issued in 2006 found that, for data
collection as a whole, the accuracy of the estimates of trafficking is in doubt because of
methodological weaknesses, gaps in data, and numerical discrepancies. The report
further states that country data are not available, reliable, or comparable and a
considerable discrepancy exists between the numbers of observed and estimated
victims of human trafficking.

Furthermore, at a National Task Force meeting during March 2009, participants noted
that the Royal Government of Cambodia has identified data collection as an area that
needs continued effort to get accurate information on trafficking in persons in Cambodia
in all aspects of protection, prosecution, and prevention activities.                While
USAID/Cambodia understands the importance of having baseline information on
trafficking, the mission has determined that collecting baseline information is beyond the
scope of the project. As such, the audit found that USAID/Cambodia has not
established baseline data on trafficking victims in Cambodia.

USAID/Cambodia also noted other organizations and researchers have attempted to
establish baselines in Cambodia without success. Developing baseline data is difficult in
Cambodia for the following reasons:

    (1) Victims are a hidden population.

    (2) Service providers may be unwilling to share victim data because of confidentiality
        concerns.

    (3) The definition of the term “trafficking in persons” is broad.

    (4) Existing data may not be reliable.

Human trafficking victims may be unaware, unwilling, or unable to acknowledge that they
are trafficking victims, so it is difficult to reach them to collect information using standard
sampling techniques. The difficulty in defining trafficking in persons and the lack of
criteria also hinder the government’s ability to identify victims, create consistent
statistical databases, design analytical tools for surveys and estimates, and compare
and combine data across provincial and national levels.


4
 GAO-07-1034, HUMAN TRAFFICKING: Monitoring and Evaluation of International Projects Are
Limited, but Experts Suggest Improvements, July 2007.
5
  GAO-06-825, HUMAN TRAFFICKING: Better Data, Strategy, and Reporting Needed to
Enhance U.S. Anti-trafficking Efforts Abroad, July 2006.


                                                                                             9
The GAO audit report suggested that baseline data could be developed using sampling
methods that have been used to sample other hard-to-reach populations, including the
homeless, hidden migrants, missing and exploited children, domestic violence victims,
inmates, and drug users. One suggested method is sampling of “hot spots”—an
intensive search for victims in areas known to have high concentrations of victims or in
areas to which many victims return. Other methods include adaptive cluster, double,
indirect, and snowball sampling. These methods could be used individually or in
combination, depending on the methodologies that are appropriate for the selected
location sampled in Cambodia. Appendix III contains a complete list of sampling
methods suggested by a GAO-convened panel of experts to estimate the number of
human trafficking victims.

Without estimates of the scope of human trafficking to use as baselines in project
locations, it is difficult to determine areas where interventions are most needed and
where interventions would have the greatest impact. Therefore, to address this problem,
this audit makes the following recommendation:

   Recommendation No. 1: We recommend that USAID/Cambodia, in conjunction
   with the Royal Government of Cambodia, develop and implement a plan to
   establish and implement a national data collection system as a prerequisite to
   establishing baseline data on numbers of trafficking victims.

USAID/Cambodia Needs to Develop
Indicators and Targets to Measure
Progress and Achievement of
Project Goals
  Summary: Federal law and USAID guidance require missions to develop
  performance management indicators and targets that will reveal whether desired
  results are occurring. USAID/Cambodia’s Counter Trafficking in Persons project
  has not developed performance indicators and targets to effectively assess
  progress and achievement of project goals. This was due to the mission’s
  development of lower-level indicators of outputs and processes at the activity level
  rather than outcome and impact indicators at the intermediate level. Without
  effective performance management indicators at the intermediate level, it is difficult
  to determine whether the project is efficient and effective and whether the project is
  on track to achieve its goals.

As noted in the Foreign Assistance Act of 1961, Section 621A, 22 U.S.C. 2381a, foreign
aid funds could be utilized more effectively by the adoption of methods for comparing
actual results of programs and projects with those anticipated when they were
undertaken.

ADS 203.3.4 notes that missions/offices must include performance indicators in their
performance management plans, and states that performance indicators are used to
observe progress and to measure actual results compared with expected results and to
help answer how or if a USAID mission/office or assistance objective team is
progressing toward its objective. Performance indicators may measure performance at
any level from outputs to the goals of the project.



                                                                                           10
Furthermore, according to ADS 203.3.4.7, it is expected that, over the life cycle of a
project, different types of indicators will be more informative at different times: In the
early stages, output indicators will be the primary source of performance information; at
later stages, outcome and impact indicators will be more important.

Similarly, the 2007 GAO audit report on human trafficking noted the following as a
weakness: Performance measures have not been established to gauge the overall
impact of antitrafficking programs abroad, thereby preventing the U.S. Government from
determining the effectiveness of its efforts and adjusting its assistance. The report
further states that baseline and target values of indicators are needed to assess project
performance.

USAID/Cambodia’s Counter Trafficking in Persons project has not developed
performance indicators and targets to effectively assess progress and achievement of
project goals to (1) provide protection to victims of human trafficking in Cambodia,
(2) increase prosecution of human traffickers, (3) coordinate targeted prevention and
awareness-raising activities, and (4) assist with the reintegration of trafficking survivors
into Cambodian society. This occurred because the mission developed lower-level
indicators of outputs and processes at the activity level rather than outcome and impact
indicators at the intermediate level. For example, USAID/Cambodia’s performance
management plan for FY 2008 listed a total of 19 output and process indicators and the
target, actual, and percentage achieved for each indicator. The output indicators
included the number of police trained, number of victims provided legal assistance, and
number of vulnerable persons who received scholarships to stay in school. Conversely,
an outcome indicator would depict the number of trafficking victims reduced as a result
of project assistance.

USAID/Cambodia’s operational plan showed three indicators, as well as the target,
actual, and percentage achieved for each for FY 2008. The three indicators are the
number of domestic human rights nongovernmental organizations receiving U.S.
Government support; the number of curricula created or modified to focus on human
rights with U.S. Government assistance; and the number of public advocacy campaigns
on human rights supported by U.S. Government. As with the performance management
plan, the indicators in the operational plan are output-oriented rather than outcome and
impact indicators.

Determining the proper performance indicators and targets to measure whether a project
is on track to achieve its goals was difficult for the following reasons. Presently, no
agreed standard for collecting, analyzing, and comparing trafficking data exists in
Cambodia. This lack of standardized data represents a significant challenge in
understanding the extent of the trafficking problem and in designing appropriate
performance indicators and targets.

Currently, performance indicators and targets to measure progress and achievements of
project goals do not exist; as such, it is challenging to determine whether
USAID/Cambodia is effectively assisting trafficking victims. To address this problem,
this audit makes the following recommendation:

   Recommendation No. 2: We recommend that USAID/Cambodia develop
   performance indicators and targets to measure progress and achievement of the
   Counter Trafficking in Persons project goals.


                                                                                         11
USAID/Cambodia Should Improve the
Methodology of Processing
Trafficking Cases
    Summary: Prosecution is one of four components of USAID/Cambodia’s Counter
    Trafficking in Persons project, with the primary goal to increase prosecution of
    human traffickers. Currently, a standard methodology is not available in Cambodia
    to track arrests, prosecutions, and convictions of trafficking cases. Because of the
    lack of a case management mechanism, trafficking cases processed at the
    provincial level are not reported at the national level, causing data deficiencies in
    the tracking and reporting of trafficking cases. In the past year, Cambodia
    experienced a reduction in the total number of prosecutions and convictions, and it
    was downgraded from Tier 2 to the Tier 2 Watch List by the U.S. State Department
    in its 2009 Trafficking in Persons Report. 6

As noted in the memorandum of understanding between USAID/Cambodia and the
Royal Government of Cambodia, one of the goals of the Counter Trafficking in Persons
project is to increase the prosecution of human traffickers. In addition, one of the
project’s prosecution component activities that support the goal to increase prosecutions
was to enhance the data collection system on prosecution.

Further enforcing the need for a case tracking methodology, under ADS 203.3.2.1, the
first of the four principal steps in the performance management process is to establish a
performance management framework. This principle states that the assistance objective
team must plan how it will monitor and evaluate progress toward achieving long-term
results, including the following:

     •   Identifying the data collection methods that will be used, the frequency of data
         collection, and the responsibility for data collection, compilation, analysis, and
         data quality assessments; and

     •   Deciding how data will be used for decision making on how to improve
         performance, resource allocation, and communication of the USAID
         mission/office’s story.

Currently, a standard methodology to track arrests, prosecutions, and convictions of
trafficking cases is not available in Cambodia. USAID/Cambodia has not been able to
help the Royal Government of Cambodia develop data collection methods specific to
trafficking cases. As such, the mission cannot utilize data to determine performance
improvements or measure success of the Counter Trafficking in Persons project’s
prosecution component.

USAID/Cambodia has provided capacity-building opportunities to law enforcement
officials in the form of training on the new trafficking law, rights, and responsibilities of
nonlawyers as advocates for victims of crime, and training on legal case management.
Although the Counter Trafficking in Persons project provided training to the Royal

6
  The Trafficking in Persons Report is a diplomatic tool for the U.S. Government to use to
encourage continued dialogue and to help focus resources on prosecution, protection, and
prevention programs and policies.


                                                                                            12
Government of Cambodia regarding case management and judicial processes, a
national mechanism has not been established to track the progression of trafficking
cases as they move through the judicial system.

Based on discussions with The Asia Foundation, the audit ascertained that prosecutions
at the provincial level were not included in data submitted to the Ministries of Justice and
Interior at the national level. In addition, the United Nations Children’s Fund (UNICEF)
noted that Cambodia has some issues in data collection because a judicial database is
not operational. Furthermore, the Ministry of Justice noted the following needs for
Cambodia’s judicial system:

   (1) better data collection on trafficking cases, and

   (2) more case analyses to identify and improve the major weaknesses within the
       judicial system that affect human trafficking prosecutions.

Because of the lack of a case management mechanism, the trafficking cases processed
at the provincial level are not reported at the national level, causing data deficiencies in
the tracking and reporting of trafficking cases.

Furthermore, the State Department’s 2009 Trafficking in Persons Report has
downgraded Cambodia’s ranking from Tier 2 to Tier 2 Watch List (see footnote 2), noting
that the Royal Government of Cambodia demonstrated uneven law enforcement efforts
to combat trafficking during the last year. The Trafficking in Persons Report also
highlighted the following recommendations for Cambodia:

   (1) Train law enforcement and other government officials to place greater emphasis
       on enforcing the human trafficking provisions in the February 2008 law.;

   (2) Significantly improve the number of prosecutions, convictions, and punishments
       of trafficking offenders.

   (3) Substantially improve efforts to prosecute, convict, and criminally punish public
       officials complicit in trafficking.

   (4) Hold labor-recruiting agencies criminally responsible for labor trafficking induced
       by fraudulent recruitments.

The Trafficking in Persons Report also stated that the Royal Government of Cambodia
obtained convictions of 12 trafficking offenders and initiated 71 trafficking prosecutions
over the past year. This was a significant decrease compared with the 52 convictions
obtained during the previous reporting period.

Because a standard mechanism for tracking trafficking cases would improve the ability
to report prosecutions and convictions, this audit makes the following recommendation:

   Recommendation No. 3: We recommend that USAID/Cambodia develop and
   implement a plan, in conjunction with the Royal Government of Cambodia, to
   improve the methodology to track arrests, prosecution, and conviction of
   trafficking cases that enter the judicial process.



                                                                                         13
EVALUATION OF
MANAGEMENT COMMENTS
In response to this report, USAID/Cambodia generally agreed with all three
recommendations. Based on management’s comments, a management decision has
been reached for each of the recommendations, and a determination of final action is
pending. An evaluation of the management comments for each recommendation is
discussed below.

In response to recommendation no. 1, USAID/Cambodia did not disagree with the
recommendation to develop a plan to obtain baseline data on numbers of trafficking
victims. The mission considers the development of a methodology and implementation
of a sustainable data collection system the prerequisite to establishing baseline data; as
such, it has been the focus of the current project. A plan to establish and implement a
national data collection system will be finalized by June 30, 2010. The mission stated
that more focus will be placed on the establishment of baseline data in subsequently
awarded agreements.

While the U.S. Government Accountability Office report on page 10 provides several
options to estimate baseline data, the audit team believes that the mission’s response is a
logical approach to the development and implementation of a sustainable data collection
system and establishing a valid baseline for human trafficking in Cambodia. Therefore,
recommendation no. 1 has been revised to focus on the development and implementation
of a national data collection system as a prerequisite to establishing baseline data on
numbers of trafficking victims. Based on the mission’s response, a management decision
has been reached and determination of final action will be made by the Audit,
Performance and Compliance Division upon completion of the planned corrective action.

USAID/Cambodia agreed with recommendation no. 2. To address the recommendation
of developing performance indicators and targets to measure progress and achievement
of the project goals, the mission modified the projects cooperative agreement during
September 2009 to include a 2-year program extension through September 2011. The
agreement modification requires an updated performance management plan and results
framework that focuses on measurement outcomes and impact. The mission will issue
final approval of the updated performance management plan and results framework no
later than December 31, 2009. Based on the mission’s response, a management
decision has been reached, and determination of final action will be made by the Audit,
Performance and Compliance Division upon completion of the planned corrective action.

In response to recommendation no. 3, USAID/Cambodia agrees that it should improve
the methodology of processing trafficking cases and plans to offer direct assistance to
the Royal Government of Cambodia’s Ministry of Justice to better collect data on
prosecutions and convictions. Implementation of a functional trafficking database will
take place no later than June 30, 2010. Based on the mission’s response, a
management decision has been reached, and determination of final action will be made
by the Audit, Performance and Compliance Division upon completion of the planned
corrective action.



                                                                                        14
                                                                             APPENDIX I



SCOPE AND METHODOLOGY
Scope
USAID/Washington conducted this performance audit in accordance with generally
accepted Government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis
for our findings, and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based
on our audit objective.

The purpose of the audit was to determine whether USAID/Cambodia’s Counter
Trafficking in Persons project achieved its planned activities. Audit fieldwork was
conducted at USAID/Cambodia from July 13 through July 31, 2009, and at
USAID/Washington through September 4, 2009. The audit covered the period from
August 4, 2006, to June 30, 2009. The total amount obligated for the project was
approximately $4.6 million; as of June 24, 2009, about $3.8 million was disbursed to The
Asia Foundation. On September 29, 2009, USAID/Cambodia extended the project an
additional 2 years from September 30, 2009, to September 30, 2011, and increased the
total estimated amount by $2.7 million from $4.6 million to $7.3 million.

In planning and performing the audit, we assessed management controls related to
management review of performance measures and indicators. Specifically, we obtained
an understanding of and evaluated the Counter Trafficking in Persons cooperative
agreement with The Asia Foundation, the prime implementing partner; subsequent
modifications to the agreement; the monitoring and evaluation plan prepared by The
Asia Foundation; the mission’s fiscal year (FY) 2008 Federal Managers’ Financial
Integrity Act assessment; the oversight performed by the agreement officer’s technical
representative; performance measures; and data quality assessments.

We conducted the audit at USAID/Cambodia in Phnom Penh, and visited implementing
partners and beneficiaries in Battambang, Sisophon, Poipet, and Siem Reap.

Methodology
To answer the audit objective, we met with personnel from USAID/Cambodia, The Asia
Foundation, Royal Government of Cambodia officials, and beneficiaries. We reviewed
documentation provided by USAID/Cambodia and The Asia Foundation, including the
performance management plan, operational plan, monitoring and evaluation plans, the
cooperative agreement, and subsequent modifications. We also reviewed progress
reports and site visit reports.

To assess whether the planned activities of the project were achieved, we focused on
the four components, which covered the key areas of coordination, prevention,
protection and reintegration, and prosecution. These four component areas had a total
of 37 target indicators for FY 2009, and we reviewed all 37 target indicators. We
validated these reported results (1) by tracing mission-reported results to documented
results and records (e.g., progress reports, participant training lists, and scholarship



                                                                                       15
recipients) at the offices of the implementing partner, (2) by conducting site visits, and
(3) by speaking to mission personnel, implementing partners, Royal Government of
Cambodia officials, and beneficiaries.

We reviewed the level of monitoring done by the agreement officer’s technical
representative and USAID/Cambodia as a whole by reviewing site visit reports,
conducting data quality assessments, and interviewing officials from USAID/Cambodia
and The Asia Foundation.

We reviewed applicable laws and regulations and USAID policies and procedures
pertaining to USAID/Cambodia’s Counter Trafficking in Persons project, including the
cooperative agreement and modifications with The Asia Foundation; Automated
Directives System chapters 202 (Achieving), 203 (Assessing and Learning), 253
(Training for Development), 303 (Grants and Cooperative Agreements to
Nongovernmental Organizations), and 320 (Branding and Marking); and the Foreign
Assistance Act of 1961 and Trafficking Victims Protection Act of 2000, as codified in Title
22 of the U.S. Code.




                                                                                        16
                                                                             APPENDIX II



MANAGEMENT COMMENTS
                       USAID/Cambodia’s Comments
                     on the Office of Inspector General’s
                         Audit of USAID/Cambodia’s
                    Counter-Trafficking in Persons Project
                      Audit Report No. 9-000-10-00X-P

Recommendation #1: USAID/Cambodia develops a plan to obtain baseline data on
numbers of trafficking victims.

We do not disagree. However, before this data can be obtained, there are several things
that must be accomplished. We are actively working to accomplish them.

   •   There is a lack of cohesive understanding across government and civil society on
       what comprises human trafficking, given the thin and often ambiguous line
       between trafficking, illegal migration, and human smuggling. The first step in
       developing an easily applicable methodology for data collection will be to ensure
       a common understanding on what qualifies as a human trafficking situation and to
       develop standardized formats based on common understanding. This will enable
       trends to be tracked and analyzed and be a valuable tool for the Royal
       Government of Cambodia (RGC) and the anti-trafficking community. To ensure
       that there is ownership and capacity within the RGC to sustain this activity after
       the CTIP program ends, all efforts including implementation of the methodology
       and data collection process will be directed and owned by the RGC.
   •   USAID/Cambodia’s objective is to focus on the development of a methodology
       and implementation of a sustainable data collection system. The process of
       establishing a firm baseline (with any validity) is related to data collection;
       however, it is not the same process. A sound data collection system is the
       foundation for determining a valid, meaningful baseline. Concurrently, USAID is
       continuing to coordinate with other donors, implementers and the Royal
       Government of Cambodia (RGC) to interpret and analyze whatever data is
       available on the numbers of trafficking victims. If there is a follow-on project in
       the future, USAID/Cambodia will consider the establishment of baseline data but
       feel this is premature at this time for the reasons listed above.

Target date for completion: The current CTIP project does not include establishment of
baseline data. Rather, the expectation is that there will be a data collection methodology
developed in collaboration with the RGC that will be directed and owned by the national
government. A plan to establish and implement a national data collection system will be
developed and finalized in conjunction with RGC by June 30, 2010. Following the end
of the CTIP agreement (September 30, 2011), it is expected that the RGC will use this
system to identify the baseline data.


                                                                                        17
Recommendation #2: USAID/Cambodia develops performance indicators and
targets to measure progress and achievement of the Counter Trafficking in Persons
project goals.

We agree and have taken the following steps.

   •   In September 2009, USAID modified our cooperative agreement with TAF to
       include the two-year program extension from 2009-2011 which, in turn, requires
       an updated Performance Monitoring Plan (PMP) and Results Framework. By the
       end of November 2009, TAF will submit the revised PMP and Results
       Framework for USAID approval. The revised documents will focus on measuring
       outcomes and impact.

   •   Due to the budget allocation for FY 2008, Trafficking in Persons was funded
       under Human Rights in the operational plan (OP). Thus, OP indicators for CTIP
       were reported using OP Human Rights indicators. These OP Human Rights
       indicators did not effectively capture the CTIP project. In 2009 the CTIP program
       was funded and reported under Peace and Security in the OP. We believe Peace
       and Security OP indicators will better reflect the outcome of the CTIP work.
       While these indicators are output oriented, they are the standard indicators that
       were developed in coordination with a broad range of technical and regional
       experts from USAID and the State Department.

Target date for completion: The updated PMP and Results Framework are in process and
final drafts of both will be submitted by TAF to USAID no later than November, 30,
2009. USAID will issue final approval of PMP and Results Framework no later than
December 31, 2009.

Recommendation #3: USAID/Cambodia should, in conjunction with the Royal
Government of Cambodia, improve the methodology of processing trafficking cases.

We agree and are taking the following steps.

   •   The CTIP program will continue to work with the National Committee to Lead
       the Suppression of Human Trafficking, Smuggling, Labor Exploitation and
       Sexual Exploitation in Women and Children -- the newly renamed structure
       including the Ministry of Justice (MOJ) -- in the area of data collection, which
       includes prosecution. In addition, through USAID’s Rule of Law and Human
       Rights program, we will offer assistance specifically to MOJ, in coordination with
       the work of the National Committee, to better collect data on prosecutions and
       convictions.

   •   On November 20, 2009, USAID co-sponsored with the MOJ a workshop on Data
       Collection of Human Trafficking and Sexual Exploitation Cases. Approximately
       90 RGC officials consisting of court presidents, prosecutors and court clerks from
       21 municipal and provincial courts participated. The workshop trained court


                                                                                      18
       officials on how to charge trafficking cases under the new Law on the
       Suppression of Human Trafficking and Sexual Exploitation; and how to improve
       reporting of this data to the Ministry of Justice using the new MOJ data collection
       methods. This will enable the RGC to more accurately represent its annual
       trafficking prosecution data. MOJ has already proposed follow-up field visits to
       individual courts in the months ahead to assist and support courts in processing
       and reporting on trafficking cases. The workshop and trafficking database are
       part of MOJ's larger effort to modernize its information systems and improve the
       reliability of case information.

Target date for completion: Implementation of a functional trafficking database and
follow-up visits to individual courts will take place no later than June 30, 2010. It is also
expected that the quality of reporting and processing will continue to be improved
through the end of the program (September 30, 2011).


Submitted by:


________/s/_____
Flynn Fuller,
Mission Director
USAID/Cambodia




                                                                                           19
                                                                                                                      APPENDIX III


                            Methods Suggested by Expert Panel to
                       Estimate the Number of Human Trafficking Victims
This appendix describes the sampling methods suggested by a U.S. Government Accountability Office (GAO)-convened panel of experts to estimate the
number of human trafficking victims (extracted from GAO’s July 2007 Report on Human Trafficking, Monitoring and Evaluation of International Projects Are
Limited, but Experts Suggest Improvements.)

           Method                         Description of method                                 Application to human trafficking
 Stratified random sampling       The population is divided into subgroups,         Geographic areas are divided into subareas, which allows
 to oversample rare units         and random samples are selected from              for a more-intensive search of cases in trafficking “hot
                                  each subgroup.                                    spots.”
 Double sampling                  After selecting a sample of primary units to      First, a preliminary estimate of human trafficking cases is
                                  obtain preliminary estimates, a sample of         obtained from reported cases in certain geographic areas.
                                  secondary units is selected to obtain more        Second, a more precise estimate of actual victims is
                                  accurate counts.                                  obtained by focusing on the areas with a higher
                                                                                    concentration of reported cases.
 Adaptive cluster sampling        After an initial set of units is selected,        After an initial trafficking case is identified, additional cases
                                  additional units in its neighborhood are          in its “vicinity” are identified. The goal is to find clusters that
                                  added to the sample.                              usually are defined geographically.
 Capture-recapture                Two random samples are independently              Two random samples of reported trafficking cases are
 sampling                         drawn, and the number of common and               independently drawn, and the number of common and
                                  different units is used to estimate the size      different cases is used to estimate the total number of
                                  of the population.                                reported cases.
 Indirect sampling                A “sisterhood approach” to sampling               Relatives or friends of trafficking victims are interviewed,
                                  involves sampling a related population that       and an estimate is obtained on the basis of the relationship
                                  is not as difficult to sample as the              between the two groups.
                                  population of interest. An estimate is
                                  obtained by using the relationship
                                  between the hard-to-reach and easy-to-
                                  reach populations.
 Sentinel site surveillance       A nonrandom sample of sites is selected           Sites with higher concentrations of trafficking cases can be
                                  over time to observe changes in                   identified and observed over time to determine whether
                                  characteristics.                                  there is a change in the number of victims found or rescued,
                                                                                    or both.
 Snowball sampling                An initial observation is taken and               An identified victim identifies other victims with whom he or
                                  augmented by the participants. This is a          she has been in contact. In turn, these victims identify
                                  participant-driven approach.                      others.
 Model-based estimator            A model of human trafficking is developed,        Based on the underlying relationships of a human trafficking
                                  followed by empirical work aimed at               model, a multiplier of identified cases is used to extrapolate
                                  obtaining parameter estimates.                    a total or aggregate estimate.
 Use of decoys                    Decoys are used to estimate an elusive            An initial estimate of reported victims can be adjusted on the
                                  population. For example, the U.S. Census          basis of the number of decoys that are not found by the
                                  Bureau used decoys in studies of the              enumerators to account for victims who may have been
                                  homeless to estimate how many of the              missed.
                                  homeless were not found.
 Random approximation             This procedure is an approximation of and         Every 5th or 10th employment establishment, household, or
                                  is more practical than true random                reintegrated trafficking victim is selected to generate an
                                  sampling.       For example, systematic           estimate that can be used without losing the ability to
                                  random      sampling     requires    random       generalize.
                                  sampling in the first step, while the units in
                                  the second step are selected in some
                                  systematic fashion.
 Sampling with certainty          Particular units are removed from the             Some geographic areas with a known high incidence of
                                  sampling design to reduce the variation in        trafficking can be included in the estimation with certainty,
                                  the estimates. These units are selected           while sampling procedures can be applied in other parts of a
                                  “with certainty,” while the “noncertainty”        country or region.
                                  units are randomly selected.




                                                                                                                                     20
                                                                                                                 APPENDIX IV


                           Audited Fiscal Year 2009 Work Plan Activities
This appendix documents the fiscal year (FY) 2009 planned activities of USAID/Cambodia’s Counter Trafficking in Persons project (extracted from The
Asia Foundation’s Fiscal Year 2009 Work Plan for the Counter Trafficking in Persons Project.)

   FY 2009 Work Plan
                                             Target Indicator                               Achieved Through June 30, 2009
       Activities
COORDINATION
         Activities                           Target Indicator                                Achieved through June 30, 2009
a) Effective and efficient       Three meetings of the National Task            Four meetings conducted, including representatives from
coordination among the           Force, coordinated with High-Level             civil society, government ministries, and NGOs.
National Task Force, High-       Working Group Secretariat.
Level     Working   Group,       16 Working Group and Cluster Group             More than 16 subcommittee meetings were conducted.
nongovernmental                  coordination meetings.
organizations     (NGOs),        Three staff supported at the secretariat.      Four employees were hired at the secretariat in Phnom
Working      and   Cluster                                                      Penh to provide assistance to the National Task Force.
Groups.                          National     Task      Force     Secretariat   Both positions were recruited and hired by The Asia
                                 Manager       and     Program     Assistant    Foundation.
                                 recruited.
                                 Two        provincial     capacity-building    Two provincial workshops were attended
                                 workshops attended.
                                 12 National Task Force newsletter              Not complete; produced one annual report with hard copy
                                 issues distributed to stakeholders;            in Khmer.
                                 Visibility Consultant recruited.
b) Establishment of a data       Document the number of trafficking             Not complete; pilot study complete buts needs
collection    system     and     victims rescued and report it to the           improvement and strengthening. No data indicator standard
mechanism                  for   National Task Force; Data Program              or defined interview process exists. NGOs have created
dissemination               to   Officer recruited.                             databases but cannot validate or compare separate
stakeholders.                                                                   databases.
c) Provincial Task Force on      Two Provincial Task Force Work Plans.          Work plans developed for the provinces of Siem Reap and
Human Trafficking in two                                                        Svay Rieng.
provinces is able to finalize    Two        Provincial      Task      Force     Implementation Plans developed for the provinces of Siem
and implement the work plan      Implementation Plans.                          Reap and Svay Rieng.
in      coordination     with    Two Provincial Task Force Secretariats         The Provincial Task Force Secretariats report every week to
stakeholders.                    are     actively     engaged      in   the     the High-Level Working Group and send monthly status
                                 implementation of Work plans.                  reports.
                                 Four quarterly meetings documented.            Monthly meetings were held.
d) Monitoring and Evaluation.    12 field visits/monitoring reports.            More than 12 visits have occurred; the 24 provinces report
                                                                                progress on a monthly basis at a minimum. The National
                                                                                Task Force is highly involved in monitoring and evaluation.
PREVENTION
         Activities                           Target Indicator                                Achieved through June 30, 2009
a) Research on trafficking of    One study completed by December                Not complete; data quality of report was not good and
men into the fishing industry    2008 and distributed by February 2009.         needs to be validated.
to assist agencies to plan
programs addressing this
issue.
b) Followup activities of        Number      of    campaign     events          Five provincial public forums were held with more than
previous awareness-raising       organized/supported; report on the             2,000 government and NGO individuals trained. A radio
activities to address gaps.      followup   survey   disseminated    to         campaign was run with 30 programs across nine stations for
                                 stakeholders;   number     of    radio         15 weeks. Another radio campaign hosted 45 call-in
                                 campaigns held.                                programs across three radio stations at 40 minutes each.
                                                                                The call-in programs were hosted by the Ministry of
                                                                                Women's Affairs and averaged five callers per program.
                                                                                Two videos were produced to be used on television and at
                                                                                universities.




                                                                                                                                 21
c) Stronger mechanisms to       100 government and NGO personnel             Friends International, a subgrantee, hosted two training
make children safe.             trained.                                     programs at the provincial level for their ChildSafe program,
                                                                             with two more to follow.
d)    Enhanced     economic     Education scholarships provided to 250       Substantially     complete;     206      students    received
opportunities        through    students.                                    scholarships. As of June 30, 2009, we would expect
education and skills training                                                approximately 188 of 250 students (75 percent) to receive
for 300 students.                                                            scholarships. As 206 students were provided scholarships
                                                                             as of June 30, 2009, we consider this indicator achieved.
                                Vocational training provided to 75           111 individuals received vocational training.
                                students.
                                Opportunity       for   income-generation    297 families received interest-free loans.
                                provided to 150 families.
e) Monitoring and evaluation.   Eight field visits and monitoring reports.   Not complete; monitoring reports are only received on a
                                                                             quarterly basis.
PROTECTION               and
REINTEGRATION
       Activities                           Target Indicator                              Achieved through June 30, 2009
a) Proposed subdecree on        A      training-of-trainers  curriculum      Substantially complete; five work shops were conducted in
victims' rights endorsed by     developed; 10 trainings conducted in five    five provinces and a training of trainers curriculum was
the National Task Force and     provinces by January 2009.                   developed; however, it is pending finalization of the National
signed by the Prime Minister                                                 Minimum Standards and the Victims Assistance Manual and
referred to as the National                                                  planned to be complete in 2009.
Minimum      Standards   for    15 organizations field testing the Victims   The Victims Assistance Manual and National Minimum
Victim     Protection   and     Assistance    Manual      and     National   Standards were tested with eight shelters and three
implementation of these         Minimum Standards.                           coalitions composed of multiple NGOs.
standards.                      2,000 copies in Khmer and 1,500 in           Substantially complete; content has been approved, but
                                English of the Victims Assistance            the format has not been finalized; it is planned to be
                                Manual produced; launch two trainings        complete in 2009.
                                on the Victims Assistance Manual and
                                the National Minimum Standards.
                                Eight working and cluster groups             More than eight meetings were held during this fiscal year.
                                meetings held.
                                One subdecree proposed by the                The subdecree was proposed as a policy/proclamation not
                                National Task Force to Council of            law to avoid imposing a law that could be seen as
                                Ministers by November 2008.                  punishment if shelters/NGOs were not in compliance with
                                                                             the laws. According to the implementer, the shelters do
                                                                             need to improve to meet the standards but should remain
                                                                             open and allowed the time to make the necessary
                                                                             improvements.
b) Support to Transit,          Two shelters enhanced through Women          Shelters in Koh Kong and Svay Rieng were assisted to
Assessment, and Reception       In Development program.                      improve physical premise and management and
Centers.                                                                     organizational capacity
                                Workshop with 18 participants coming         Two meetings were conducted and two more are planned
                                from five NGOs and one government-run        with the same 18 participants.
                                shelter; four meetings held and
                                proceedings prepared.
                                Four quarterly reports; 300 victims are      Not complete; each victim visits two to six shelters with no
                                provided assistance at shelters; 12 field    way of accurately tracking their movement, so no usable
                                monitoring reports.                          data on this have been reported. Thus, the number of
                                                                             victims provided assistance cannot be accurately measured.
                                One transit center for male trafficking      A shelter in Koh Kong was established, servicing an
                                victims is operational; 30 male victims      estimated 100 men per quarter.
                                counseled and given assistance.
                                Four shelters and one safe house             Four shelters are supported. A safe house was established
                                supported to protect rights of victims.      in Svay Rieng.
c) Monitoring and evaluation.   Monitoring visits and reports.               Provincial shelters are visited on a monthly basis at a
                                                                             minimum, and all project activities under this project were
                                                                             attended by the implementer.




                                                                                                                           22
PROSECUTION
          Activities                          Target Indicator                              Achieved through June 30, 2009
a) Research on Building           Printing and distribution of 100 copies of   The cluster group meetings were held, the research
Blocks for Law and Order:         Building Blocks for Law and Order;           conducted, and the report written.          However, it was
An Assessment of Police           hosting of four police training cluster      determined that the report should be shared only with key
Recruitment, Training, and        group meetings.                              stakeholders, and it was kept as an internal document for
Promotion        Practices   in                                                guiding training and capacity-building activities.
Cambodia.
b) Active Involvement of the      Printing and distribution of 800 official    Substantially complete; awaiting finalized explanatory
National Task Force in            commentaries on new law; hosting of          notes to conduct training and distribute copies. This should
planning followup activities      four cluster group meetings.                 occur around November 2009.
related      with    the   new
trafficking law.
c) Training judges and            300 new and continuing judges and            Substantially complete; awaiting finalized explanatory
prosecutors on the new            prosecutors trained on the new               notes but working with the Royal Academy of Judicial
Trafficking         Law–Active    trafficking law.                             Professionals to accomplish this.       Training has been
Involvement of the National                                                    designed and 260 current judges and 100 new judges
Task Force in planning                                                         should go through this training in November 2009.
followup activities related
with the new trafficking law.
d) Increasing access to           Training curriculum with six modules and     Six modules were completed, with 64 government and NGO
justice     for    victims   of   case studies; 25 government and NGO          staff.
trafficking.                      staff and community leaders trained.
                                  Distribution of 300 legal aid service        Approximately 2,900 legal aid directories were distributed.
                                  directories.
e) Front-line police and          One practical education package for          Each of these was completed in fiscal year 2009.
service              providers    front-line police officers; one education
knowledgeable about the           package for frontline social service
new trafficking law.              providers; two training of trainers'
                                  manuals for training police and social
                                  service personnel; one training film for
                                  training police; 2,000 copies of “Know
                                  Your Choices” distributed in Khmer.
f) Enhanced data collection       Obtain number of court cases related         Complete but not achieved; have monitored nine courts
system on prosecution.            with trafficking, disaggregated into         and plan to give ownership of this over to the Ministry of
                                  status, results, and number of victims       Justice and Royal Academy of Judicial Professionals;
                                  who logged cases in court.                   however, the data sets obtained are not useful because of
                                                                               lack of validity and uniformity, and it has been hard to
                                                                               maintain consistency in collection efforts.




                                                                                                                             23
U.S. Agency for International Development
        Office of Inspector General
       1300 Pennsylvania Ave., NW
          Washington, DC 20523
            Tel: (202) 712-1150
            Fax: (202) 216-3047
            www.usaid.gov/oig

                                            24
